No..

Supreme Court of tfje fHntteb States;
ROBERT L. KELLY,
Petitioner,
v.
GARRETT LANEY,
Respondent.

PROOF OF SERVICE

Mr. Kelly declares that on this 1st day of October, 2021, as required by Rule 29, that
he has served the enclosed Petition for Writ of Certiorari on the attorneys for respondent to
the above proceeding, by depositing an envelope containing the above document in the
United States mail properly addressed with first class postage pre-paid. The attorney of
record for Respondent is:
ELLEN F. ROSENBLUM
Attorney General
400 Justice Building
1162 Court Street NE
Salem, Oregon 97301-4096
Dated this 1st day of October, 2021.
Respectfully submitted,
Robprt L. Kelly

